TN

C@OCKLE

L eva l B rie fs E-Mail Address:
8 contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-1288

CRAIG GENESS,
Petitioner,
v.
COMMONWEALTH OF PENNSYLVANIA,
ADMINISTRATIVE OFFICE OF
PENNSYLVANIA COURTS,
Respondent.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the RESPONSE IN
OPPOSITION TO THE PETITION FOR A WRIT OF CERTIORARI in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains

5994 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 15th day of April, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 5, 2023

 

GENERAL NOTARY-State of Nebraska A 2 Z d,
f RENEE J. GOSS \ene~e. 9. ( Qedicawe- .

Notary Public Affiant 40873
